App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 18-50710
-----------------------------------------------------------------------

DAVID MCMAHON; STEVEN LITTLEFIELD;
TEXAS DIVISION, SONS OF CONFEDERATE
VETERANS, INCORPORATED,
Plaintiffs - Appellants
v.
PRESIDENT GREGORY L. FENVES,
In His Official Capacity as President
of the University of Texas at Austin,
Defendant - Appellee
**************************************************
Consolidated with 18-50800
RICHARD BREWER; TEXAS DIVISION, SONS OF
CONFEDERATE VETERANS, INCORPORATED,
Plaintiffs - Appellants
v.
RON NIRENBERG, Mayor of the City of San Antonio,
In his Individual Capacity; ROBERTO TREVINO,
San Antonio City Councilman in his Individual
Capacity; WILLIAM SHAW, San Antonio City
Councilman in his Individual Capacity; REBECCA
VIAGRAN, San Antonio City Councilman in her
Individual Capacity; REY SALDANA, San Antonio
City Councilman in his Individual Capacity;
SHIRLEY GONZALES, San Antonio City

App. 2
Councilman in her Individual Capacity; GREG
BROCKHOUSE, San Antonio City Councilman
in his Individual Capacity; ANA SANDOVAL, San
Antonio City Councilman in her Individual Capacity;
MANUEL PALAEZ, San Antonio City Councilman
in his Individual Capacity; JOHN COURAGE, San
Antonio City Councilman in his Individual Capacity;
CLAYTON PERRY, San Antonio City Councilman
in his Official Capacity; CITY OF SAN ANTONIO,
Defendants - Appellees
No. 18-50710 c/w
No. 18-50800
-----------------------------------------------------------------------

Appeals from the United States District Court
for the Western District of Texas
-----------------------------------------------------------------------

(Filed Jan. 3, 2020)
Before CLEMENT, ELROD, and DUNCAN, Circuit
Judges.
EDITH BROWN CLEMENT, Circuit Judge:
This consolidated case involves First Amendment
and state-law challenges to the removal or relocation
of Confederate monuments from a San Antonio park
and on the University of Texas’s Austin campus. In the
University case, David McMahon, Steven Littlefield,
and the Texas Division of the Sons of Confederate Veterans sued the University of Texas to reverse its decision to relocate several Confederate statues. In the San
Antonio case, Richard Brewer and the Texas Division

App. 3
of the Sons of Confederate Veterans first moved to temporarily restrain the City of San Antonio from removing a Confederate monument and two cannons from
a City park and then moved to compel their reinstallation. Both district courts dismissed Plaintiffs’ First
Amendment claims for lack of standing and then declined to exercise supplemental jurisdiction over their
state-law claims. Plaintiffs appealed. We affirm the
district courts’ dismissals.
I.
In the early 1900s, Major George Littlefield, a
Civil War veteran, donated funds to the University of
Texas to build a “massive bronze arch over the south
entrance to the campus,” a statue of President Woodrow Wilson, and statues of five Confederate leaders:
Jefferson Davis, Robert E. Lee, Albert Sidney Johnston, and John H. Reagan. The University placed the
statues on its campus in the 1930s, but never built the
arch.
About a century later, University President Gregory Fenves had the statues relocated. Plaintiffs David
McMahon, Steven Littlefield, and the Texas Division of
the Sons of Confederate Veterans sued to enjoin the
University—first in state court and then in federal
court in Austin—to reverse its decision to relocate the
statues. See McMahon v. Fenves, 323 F. Supp. 3d 874
(W.D. Tex. 2018). The Texas trial court dismissed the
suit for lack of standing; the Texas court of appeals affirmed; the Texas Supreme Court denied review. See

App. 4
Bray v. Fenves, No. 06-15-00075-CV, 2016 WL 3083539
(Tex. App.—Texarkana Mar. 24, 2016, pet. denied)
(mem. op.).
Plaintiffs’ federal complaint alleges First Amendment and Texas Monument Protection Act violations
and claims that the Board of Regents breached the
bequest agreement and exceeded its authority over
the University. The Sons of Confederate Veterans are
a non-profit organization, and McMahon and Littlefield claim to be “descendant[s] of Confederate veterans,” with Littlefield a descendant of Major Littlefield.
Fenves moved to dismiss for lack of subject-matter jurisdiction, arguing that Plaintiffs lacked standing because they did not suffer a concrete and particularized
injury. The district court granted Fenves’s motion,
holding that Plaintiffs’ familial ties to Confederate
veterans did not mean that relocating Confederate
statues, which allegedly silenced Plaintiffs’ political
viewpoint, caused them a cognizable injury. McMahon,
323 F. Supp. 3d at 879-81. The court, citing Lujan v.
Defenders of Wildlife, 504 U.S. 555, 576 (1992), stated
that “[o]ur system of governance assigns the vindication of value preferences to the democratic political
process, not the judicial process.” Id. at 880. After the
court dismissed Plaintiffs’ First Amendment claim, it
declined to exercise supplemental jurisdiction over
their remaining state-law claims. Id. at 881-82.
In the San Antonio case, the City Council gave the
United Daughters of the Confederacy permission to
erect a “Confederate Monument” in a City park in
1899. About ten years later, the City placed two

App. 5
cannons next to the monument. According to meeting
minutes from the Albert Sidney Johnston Camp of the
United Confederate Veterans, Congress donated the
cannons “for the benefit of the Confederate Camp.”1
About a century later, the City Council passed an
ordinance to remove the monument and cannons from
the park. The Texas Division of the Sons of Confederate Veterans, this time with Richard Brewer, sued the
City in federal court in San Antonio. See Brewer v. Nirenberg, No. SA:17-CV-837-DAE, 2018 WL 8897851
(W.D. Tex. Sept. 17, 2018). They moved for a temporary
restraining order to prevent the City from removing
the monument and cannons. The district court denied
the motion, but ordered the City to remove the monument “in such a manner as to preserve [its] integrity,”
and further, that it “be stored in a secure location in
order to protect it from damage or from being defaced[,] pending resolution of this lawsuit.” Id. at *1.
Plaintiffs then amended their complaint, adding as Defendants the City Councilmembers in their individual
capacities and alleging claims for First Amendment
and Texas Antiquities Code violations, for rendering
impossible a charitable gift’s purpose, and for conversion. The City moved for summary judgment on
all Plaintiffs’ claims, and the individual Defendants
moved to dismiss.
The district court granted the City’s summaryjudgment motion on Plaintiffs’ First Amendment claim,
1

Presumably, “Confederate Camp” refers to the Albert Sidney Johnston Camp.

App. 6
holding that Plaintiffs lacked standing because their
alleged injuries were not particularized. Id. at *4. The
San Antonio court followed the Austin court’s lead,
stating that, though “Plaintiffs are likely more deeply
attached to the values embodied by the Monument
than the average person walking through [the City
park], . . . ‘their identities as descendants of Confederate veterans do not transform an abstract ideological
interest in preserving the Confederate legacy into
a particularized injury.’ ” Id. (quoting McMahon, 323
F. Supp. 3d at 880).
Brewer, unlike the individual Plaintiffs in the University case, also asserted standing as a municipal taxpayer. The court held that, because the monument was
removed and the funds to do so were already expended,
Brewer’s request to enjoin the removal and the expenditure was moot. Id. at *5. It also held that, because
Brewer no longer sought an injunction and because
taxpayers lack standing to sue for previously expended
funds, he lacked taxpayer standing. Id. With all Plaintiffs’ federal claims dismissed, the court declined to exercise supplemental jurisdiction over Plaintiffs’ statelaw claims and then denied the individual Defendants’
motion to dismiss as moot. Id. at *6.
Plaintiffs in both cases appealed, and the cases
were consolidated.

App. 7
II.
The issue before us is whether Plaintiffs have
standing to bring their First Amendment claims.2 We
review whether jurisdiction exists de novo. Physician
Hosps. of Am. v. Sebelius, 691 F.3d 649, 652 (5th Cir.
2012). The party asserting jurisdiction has the burden
of establishing it. Id. At the motion-to-dismiss stage,
this means “alleg[ing] a plausible set of facts establishing jurisdiction.” Id.; see FED. R. CIV. P. 12(b)(1).
Plaintiffs argue that they have standing under
Lujan to bring their free-speech claims. Brewer argued
in his briefing that he has municipal-taxpayer standing to bring his free-speech claim, but abandoned this
ground for standing at oral argument. We therefore do
not address that issue. See, e.g., In re Thalheim, 853
F.2d 383, 386 (5th Cir. 1988) (“summarily affirm[ing]”
the district court on a claim that appellant “expressly
abandoned” at oral argument).
To establish standing, Plaintiffs must show that
they have suffered an injury in fact: a personal injury
that is traceable to the defendant’s alleged conduct and
that is likely to be redressed by a favorable decision.
Lujan, 504 U.S. at 560-61. This injury must be both
“concrete” and “particularized.” Id. at 560. An injury is
particularized if it “affect[s] the plaintiff in a personal
2

Plaintiffs’ other claims arise under state law. Both district
courts declined to exercise discretionary supplemental jurisdiction over these state-law claims after dismissing Plaintiffs’ freespeech claims. Plaintiffs do not challenge this holding on appeal.
Thus, Plaintiffs have forfeited any argument that the district
courts erred in not exercising jurisdiction over these claims.

App. 8
and individual way.” Id. at 560 n.1. That is, the plaintiff
must have “a direct stake in the outcome.” See Sierra
Club v. Morton, 405 U.S. 727, 740 (1972). To satisfy this
injury-in-fact test, Plaintiffs therefore must allege
more than an injury to someone’s concrete, cognizable
interest; they must “be [themselves] among the injured.” Id. at 734-35.
Plaintiffs argue that, because they have unique
ties to these Confederate monuments and to the Confederacy, these monuments express Plaintiffs’ political
viewpoint and, therefore, that Defendants’ removal or
relocation of these monuments violated Plaintiffs’
First Amendment rights. That is, Plaintiffs claim to
have standing because moving these monuments injured their free-speech rights. But even if Plaintiffs allege a concrete free-speech interest—i.e., if moving
these monuments even implicates the First Amendment—they fail to show that the violation of this interest is, in fact, an injury to their rights. This is because,
though these ties might give Plaintiffs strong reasons
to care about these monuments, Plaintiffs fail to explain how these ties give Plaintiffs a First Amendmentbased stake in the outcome of this litigation. They
claim that these monuments are their speech, but fail
to plausibly allege how these ties make that so.
The United Daughters of the Confederacy, Major
Littlefield, and Congress donated these monuments or
the funds to build them. Plaintiffs argue on appeal that
these donors or the beneficiaries of these donations
collaborated with the University or the City when
erecting or placing them and, therefore, co-authored

App. 9
the political speech that the monuments express. But
Plaintiffs never argue that they donated the monuments or the funds for building them or explain how
they “co-authored” the monuments’ speech. So even if
displaying these monuments was private speech, and
even if moving them impermissibly abridged that speech,
Plaintiffs have failed to plausibly show that these monuments are their speech.
To be clear, Plaintiffs do not assert these freespeech claims on another party’s behalf. If they did,
prudential limitations on standing would likely bar
their suit. See, e.g., Warth v. Seldin, 422 U.S. 490, 499
(1975) (“[A] plaintiff generally must assert his own legal rights and interests, and cannot rest his claim to
relief on the legal rights or interests of third parties.”).
Nor do they assert that they attempted to speak but
that the University or the City thwarted that attempt.
Cf., e.g., Rosenberger v. Rector & Visitors of Univ. of Va.,
515 U.S. 819 (1995) (state university denied student
group funding to print student newspaper). Nor that
they have been prevented from hearing speech. C.f.,
e.g., Richmond Newspapers, Inc. v. Virginia, 448 U.S.
555, 576 (1980) (“Free speech carries with it some freedom to listen.”). Instead, they insist that they suffered
a particularized First Amendment injury because moving these monuments abridged their speech. But their
position is based on a fundamental confusion about
what makes an injury particularized.
Plaintiffs state several reasons why they are particularly invested in these monuments. They feel strongly
about the message these monuments supposedly convey

App. 10
about the Confederacy and the Civil War. They claim
to be descendants of Confederate veterans, including
one of the donors. They claim that these monuments
were public charitable gifts and that Plaintiffs are
among the intended beneficiaries. For example, they
argue that the cannons were donated for the benefit of
the United Confederate Veterans and that the Sons of
Confederate Veterans, as the successor association to
that group, is now that gift’s intended beneficiary.
Plaintiffs therefore care deeply about preserving monuments that convey a viewpoint that they support and
that, they believe, their ancestors donated for their
benefit. And Plaintiffs believe that these ties give them
unique reasons for caring about these monuments,
which means that their allegedly unconstitutional removal caused Plaintiffs a particularized injury—it is
particular to them because only they have these alleged ties. But that is not how particularity works.
Plaintiffs confuse having particular reasons for caring
about these monuments with having a particularized
injury.
Plaintiffs would of course prefer a world where the
University and the City display Plaintiffs’ favored
monuments. Plaintiffs provide reasons—presumably
strong ones—for why they are more attached to the
monuments’ viewpoint than the general public is. But
strong reasons are no better than weak ones at giving
Plaintiffs a direct and personal stake in this litigation.
To be sure, we do not doubt that Plaintiffs are offended
by the removal of these monuments or that they feel
this offense more acutely because of their familial ties.

App. 11
These ties, however, do not distinguish Plaintiffs from
any other persons who might claim offense at the removal of these monuments. This is because these ties
affect only the magnitude of Plaintiffs’ indignation, not
the nature of their injury. For Plaintiffs, their injury is
the pain of believing that a certain expression of a
viewpoint with which they agree has been unconstitutionally removed from public display. That is a generalized psychological injury, not a particularized freespeech one—it is felt by all who are offended by this
removal. That Plaintiffs are more offended than someone who is likeminded yet lacks these ties does not
make that generalized injury particularized. Nor does
it morph these monuments into Plaintiffs’ own speech.
Plaintiffs have shown only a rooting interest in the
outcome of this litigation, not a direct and personal
stake in it. They are in the same position as any enthusiastic onlooker.
Moreover, Plaintiffs’ contentions that they are the
beneficiaries of these gifts or are the successors-in-interest to a beneficiary are red herrings. The standing
this might confer is for their state-law claims—e.g.,
that the University breached a bequest agreement or
that the City rendered a charitable gift impossible—
not for their First Amendment claims. Thus, these
facts are irrelevant to whether Plaintiffs have standing for their federal claims.
The fundamental and fatal flaw with Plaintiffs’
argument is that they conflate agreeing with speech
with authoring speech. They claim that their speech
has been abridged, yet conspicuously absent from their

App. 12
allegations is anything showing this to be true. Plaintiffs merely agree with the ideas that they feel these
monuments express and sued in hopes of keeping them
on display. They are undoubtedly passionate about
these ideas and are upset that symbols of their values,
like these monuments, have been removed from the
public square. But what Plaintiffs seek is only to “vindicate their own value preferences,” not to redress a
First Amendment injury particular to them. See Sierra
Club, 405 U.S. at 740. Their passion, however sincere,
does not place them among the injured. Thus, Plaintiffs have not alleged a particularized injury.
III.
Because Plaintiffs have not alleged a particularized injury, they lack standing to bring their First
Amendment claims. We AFFIRM the district courts’
judgments.

App. 13
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 18-50800
-----------------------------------------------------------------------

D.C. Docket No. 5:17-CV-837
RICHARD BREWER; TEXAS DIVISION, SONS OF
CONFEDERATE VETERANS, INCORPORATED,
Plaintiffs - Appellants
v.
RON NIRENBERG, Mayor of the City of San Antonio,
In his Individual Capacity; ROBERTO TREVINO,
San Antonio City Councilman in his Individual
Capacity; WILLIAM SHAW, San Antonio City
Councilman in his Individual Capacity; REBECCA
VIAGRAN, San Antonio City Councilman in her
Individual Capacity; REY SALDANA, San Antonio
City Councilman in his Individual Capacity;
SHIRLEY GONZALES, San Antonio City Councilman
in her Individual Capacity; GREG BROCKHOUSE,
San Antonio City Councilman in his Individual
Capacity; ANA SANDOVAL, San Antonio City
Councilman in her Individual Capacity; MANUEL
PALAEZ, San Antonio City Councilman in his
Individual Capacity; JOHN COURAGE, San Antonio
City Councilman in his Individual Capacity;
CLAYTON PERRY, San Antonio City Councilman in
his Official Capacity; CITY OF SAN ANTONIO,
Defendants - Appellees

App. 14
Appeal from the United States District Court
for the Western District of Texas
(Filed Jan. 3, 2020)
Before CLEMENT, ELROD, and DUNCAN, Circuit
Judges.
JUDGMENT
This cause was considered on the record on appeal
and was argued by counsel.
It is ordered and adjudged that the judgment of
the District Court is affirmed.
IT IS FURTHER ORDERED that appellants pay
to appellees the costs on appeal to be taxed by the
Clerk of this Court.

App. 15
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 18-50710
-----------------------------------------------------------------------

D.C. Docket No. 1:17-CV-822
DAVID MCMAHON; STEVEN LITTLEFIELD;
TEXAS DIVISION, SONS OF CONFEDERATE
VETERANS, INCORPORATED,
Plaintiffs - Appellants
v.
PRESIDENT GREGORY L. FENVES, In His Official
Capacity as President of the University of Texas at
Austin,
Defendant – Appellee
Appeals from the United States District Court
for the Western District of Texas
(Filed Jan. 3, 2020)
Before CLEMENT, ELROD, and DUNCAN, Circuit
Judges.
JUDGMENT
This cause was considered on the record on appeal
and was argued by counsel.
It is ordered and adjudged that the judgment of
the District Court is affirmed.

App. 16
IT IS FURTHER ORDERED that appellants pay
to appellees the costs on appeal to be taxed by the
Clerk of this Court.

App. 17
UNITED STATES DISTRICT COURT
for the
Western District of Texas
Richard Brewer, et al.
Plaintiff
v.
Ron Nirenberg, et al.
Defendant

)
)
) Civil Action No.
) SA-17-CV-837-DAE
)
)
)

JUDGMENT IN A CIVIL ACTION
(Filed Sep. 17, 2018)
The court has ordered that (check one):
 the plaintiff (name) _____________________ recover
from the defendant (name) _________________ the
amount of _____________________________ dollars
($ _________), which includes prejudgment interest at
the rate of ____ %, plus postjudgment interest at the
rate of ____ %, along with costs.
 the plaintiff recover nothing, the action be dismissed on the merits, and the defendant (name)
_____________________________ recover costs from the
plaintiff (name) __________________________________
🗹 Other:
The Court GRANTS Defendants’ Motion for
Summary Judgment or, in the Alternative,
Motion to Dismiss, and DENIES AS MOOT
Defendants Nirenberg, et.al., Plaintiffs’ federal law claims are DISMISSED for LACK

App. 18
OF STANDING, Plaintiffs’ state law claims
are DISMISSED WITHOUT PREJUDICE.
This action was (check one):
 tried by a jury with Judge __________________ presiding, and the jury has rendered a verdict.
 tried by Judge ________________ without a jury
and the above decision was reached.
 decided by Judge David Alan Ezra.
Date: 09/17/2018

CLERK OF COURT
Wayne Garcia
Signature of Clerk
or Deputy Clerk

App. 19
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
§ No. SA:17-CV-837-DAE
§
§
§
§
Plaintiffs,
§
vs.
§
RON NIRENBERG, ROBERTO §
TREVINO, WILLIAM SHAW, §
§
REBECCA VIAGRAN,
REY SALDANA, SHIRLEY §
§
GONZALES, GREG
§
BROCKHOUSE, ANA
§
SANDOVAL, MANNY
PALAEZ, JOHN COURAGE, §
CLAYTON PERRY, and the §
§
CITY OF SAN ANTONIO,
§
Defendants.
§
RICHARD BREWER, and
TEXAS DIVISION SONS
OF CONFEDERATE
VETERANS, INC.,

ORDER GRANTING MOTION FOR
SUMMARY JUDGMENT; DENYING
AS MOOT MOTION TO DISMISS
(Filed Sep. 17, 2018)
Before the Court are Defendants the Mayor of San
Antonio, Texas, and ten members of the San Antonio
City Council’s Motion for Summary Judgment or Alternatively, Motion to Dismiss (Dkt. # 54), and Defendants Nirenberg, Trevino, Shaw, Viagran, Saldana,

App. 20
Gonzales, Brockhouse, Sandoval, Palaez, Courage
and Perry, in their individual capacities’ Rule 12(b)(6)
Motion to Dismiss (Dkt. # 59). Pursuant to Local Rule
CV-7(h), the Court finds these matters suitable for disposition without a hearing. Upon careful consideration
of the arguments asserted in the parties’ memoranda,
the Court, for the reasons that follow, GRANTS the
Motion for Summary Judgment (Dkt. # 54), and DENIES AS MOOT the Motion to Dismiss (Dkt. # 59).
BACKGROUND
The Sons of Confederate Veterans (“Confederate
Veterans) is an organization dedicated to preserving
the memory of Americans who fought for the Confederacy during the Civil War.1 (See Dkt. # 44.) According
to the Confederate Veteran’s website, its membership
is limited to male descendants of Confederate Veterans. See http://www.scv.org/new/. Defendants are the
Mayor and City Council members of the City of San
Antonio. (Dkt. # 44 at 1–3.)
In August 2017, the San Antonio City Council enacted an ordinance for the removal of a Confederate
Monument (“the Monument”) located in Travis Park
in downtown San Antonio. On August 31, 2017, the
City Council voted to remove the Monument. One day
before, on August 30, 2017, Plaintiffs Richard Brewer
and the Texas Division of the Confederate Veterans
1

Although not clear from Plaintiffs’ filings, the individual
Plaintiff is presumably a member of the Confederate Veterans.
(See Dkts. ## 1, 2.)

App. 21
(collectively, “Plaintiffs”), filed suit against Defendants
in this Court, alleging federal claims under the First
Amendment and for Due Process, as well as state law
claims for attempted trespass to land and for breach of
an easement. (Dkt. # 1.) Plaintiffs simultaneously filed
a motion for Temporary Restraining Order (“TRO”),
asking the Court to immediately restrain Defendants
from removing the Monument. (Dkt. # 2.) After a hearing, the Court denied the motion for TRO, but directed
that the removal of the Monument be carried out in
such a manner as to preserve the integrity of the Monument, and that the Monument be stored in a secure
location in order to protect it from damage or from being defaced pending resolution of this lawsuit. (Dkt. # 7
at 8-9.) On September 1 and 2, 2017, the City removed
the Monument.
After several other filings in this case, Plaintiffs
were granted leave to file a second amended complaint.
(Dkt. # 44.) Plaintiffs’ second amended complaint added
a new defendant, the City of San Antonio (“the City”),
and added that suit be brought against each council
member in both their official and individual capacities.
(Id.) The complaint alleges causes of action for violation of free speech, violation of the Texas Antiquities
Code, a claim for charitable trust/gift, and a conversion
claim. (Id.)
On July 16, 2018, Defendants filed the motion for
summary judgment or, in the alternative, motion to
dismiss. (Dkt. # 54.) On August 13, 2018, Plaintiffs filed
a response in opposition. (Dkt. # 56.) Defendants filed
a reply on August 27, 2018. (Dkt. # 58.) On September

App. 22
4, 2018, Defendant council members, in their individual capacities, filed the motion to dismiss. (Dkt. # 59.)
LEGAL STANDARD
I.

Summary Judgment

A movant is entitled to summary judgment upon
showing that “there is no genuine dispute as to any
material fact,” and the movant is entitled to judgment
as a matter of law. Fed. R. Civ. P. 56(a); see also Meadaa
v. K.A.P. Enters., L.L.C., 756 F.3d 875, 880 (5th Cir.
2014). A dispute is only genuine “if the evidence is such
that a reasonable jury could return a verdict for the
nonmoving party.” Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986).
The moving party bears the initial burden of
demonstrating the absence of any genuine issue of material fact. Celotex Corp. v. Catrett, 477 U.S. 317, 323
(1986). If the moving party meets this burden, the nonmoving party must come forward with specific facts
that establish the existence of a genuine issue for trial.
Distribuidora Mari Jose, S.A. de C.V. v. Transmaritime.
Inc., 738 F.3d 703, 706 (5th Cir. 2013) (quoting Allen v.
Rapides Parish Sch. Bd., 204 F.3d 619, 621 (5th Cir.
2000)). “Where the record taken as a whole could not
lead a rational trier of fact to find for the non-moving
party, there is no ‘genuine issue for trial.’ ” Hillman v.
Loga, 697 F.3d 299, 302 (5th Cir. 2012) (quoting Matsushita Elec. Indus. Co., Ltd. v. Zenith Radio Corp., 475
U.S. 574, 587 (1986)).

App. 23
In deciding whether a fact issue has been created,
the court must draw all reasonable inferences in favor
of the nonmoving party, and it “may not make credibility determinations or weigh the evidence.” Tiblier v.
Dlabal, 743 F.3d 1004, 1007 (5th Cir. 2014) (quoting
Reeves v. Sanderson Plumbinu Prods., Inc., 530 U.S.
133, 150 (2000)). However, “[u]nsubstantiated assertions,
improbable inferences, and unsupported speculation
are not sufficient to defeat a motion for summary judgment.” United States v. Renda Marine, Inc., 667 F.3d
651, 655 (5th Cir. 2012) (quoting Brown v. City of
Hous., 337 F.3d 539, 541 (5th Cir. 2003)).
II.

Federal Rule of Civil Procedure 12

Rule 12(c) provides that “[a]fter the pleadings are
closed—but early enough not to delay trial—a party
may move for judgment on the pleadings.” The standard for deciding a motion under Rule 12(c) is the same
as the one for deciding a motion to dismiss under Rule
12(b)(6). See Great Plains Trust Co. v. Morgan Stanley
Dean Witter & Co., 313 F.3d 305, 313 n.8 (5th Cir. 2002)
(“A number of courts have held that the standard to be
applied in a Rule 12(c) motion is identical to that used
in a Rule 12(b)(6) motion.” (citation and internal quotation marks omitted)).
Under Rule 12(b)(6), the court evaluates the
pleadings by “accept[ing] ‘all well-pleaded facts as true,
viewing them in the light most favorable to the plaintiff[s].’ ” In re Katrina Canal Breaches Litig., 495 F.3d
191, 205 (5th Cir. 2007) (quoting Martin K. Eby Constr.

App. 24
Co. v. Dall. Area Rapid Transit, 369 F.3d 464, 467 (5th
Cir. 2004)). To survive defendants’ motions, plaintiffs’
pleadings must allege enough facts “to state a claim to
relief that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). “A claim has facial
plausibility when the plaintiff[s] plead[ ] factual content that allows the court to draw the reasonable inference that the defendant is liable for the misconduct
alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
“The plausibility standard is not akin to a ‘probability
requirement,’ but it asks for more than a sheer possibility that a defendant has acted unlawfully.” Id. (quoting Twombly, 550 U.S. at 556); see also Twombly, 550
U.S. at 555 (“Factual allegations must be enough to
raise a right to relief above the speculative level[.]”).
“[W]here the well-pleaded facts do not permit the court
to infer more than the mere possibility of misconduct,
the complaint has alleged—but it has not ‘shown’—
‘that the pleader is entitled to relief.’ ” Iqbal, 556 U.S.
at 679 (alteration omitted) (quoting Rule 8(a)(2)).
Furthermore, under Rule 8(a)(2), a pleading must
contain “a short and plain statement of the claim showing that the pleader is entitled to relief.” Although “the
pleading standard Rule 8 announces does not require
‘detailed factual allegations,’ it demands more than ‘labels and conclusions.’ ” Iqbal, 556 U.S. at 678 (quoting
Twombly, 550 U.S. at 555). And “ ‘a formulaic recitation
of the elements of a cause of action will not do.’ ” M.
(quoting Twombly, 550 U.S. at 555).

App. 25
DISCUSSION
Defendants’ motion for summary judgment seeks
dismissal of Plaintiffs’ claims on the basis that: (1)
Plaintiffs lack standing to bring some or all of the
claims; (2) Plaintiffs have failed to state a claim on
which relief can be granted; (3) there is no evidence to
support one or more element of Plaintiffs asserted
causes of action; and (4) the Court lacks jurisdiction
over some of the claims. (Dkt. # 54.) The Court will first
consider whether Plaintiffs have standing to bring any
of their claims.
Defendants argue that Plaintiffs do not have
standing to bring some or all of their claims. (Dkt. # 54.)
Defendants contend that Plaintiffs have not alleged
any particularized interest and therefore have not alleged a sufficient injury in fact to confer standing. Defendants also assert that Plaintiff Brewer does not
have taxpayer standing nor do Plaintiffs have organizational standing.
To have standing to sue, a plaintiff must show that
he personally suffered some actual or threatened injury, that the injury is fairly traceable to the defendant’s challenged action, and that the relief requested
will redress the injury. Doe v. Tamipahoa Parish Sch.
Bd., 494 F.3d 494, 496 (5th Cir. 2007); Center for Individual Freedom v. Carmouche, 449 F.3d 655, 659 (5th
Cir. 2006) (citing Lujan v. Defenders of Wildlife, 504
U.S. 555, 560 (1992)). In addition, the injury must be
an “invasion of a legally protected interest which is
(a) concrete and particularized, and (b) actual or

App. 26
imminent, not conjectural or hypothetical.” Lujan, 504
U.S. at 560. The Fifth Circuit strictly enforces the
standing requirement as an essential element of subject matter jurisdiction. See Doe, 494 F.3d at 498 (citing Bender v. Williamsport Area Sch. Dist., 475 U.S.
534, 541–42 (1986)).
A.

Concrete and Particularized

To satisfy the injury-in-fact prong, a plaintiff must
allege an invasion of a “legally protected interest,” that
is both “concrete and particularized.” Plaintiffs assert
they have standing to sue on the basis that “Defendants impermissible restriction of plaintiffs’ right to expression of their political viewpoint is a restriction of a
legally protected interest.” (Dkt. # 56 at 17–18.) In
other words, Plaintiffs contend that the City engaged
in viewpoint discrimination when the City removed
the Monument. According to Plaintiffs, their viewpoint—glorifying a Confederate legacy—was reflected
in the Monument. (Id.) Additionally, they allege they
were injured “by [Defendants] rendering impossible
the public charitable gift of political speech intended
to benefit plaintiffs and expressed by the Monument
group.” (Id.)
Plaintiffs further assert that their injuries were
particularized because Defendants’ removal of the
Monument terminated political speech that Defendants and Plaintiffs had jointly established in 1908.
(Dkt. # 56 at 17.) Plaintiffs argue that “[t]his injury is
particularized[ ] because no one else was involved in

App. 27
the mutually joined speech act of placing the Monument ensemble, except plaintiffs and defendants.”
(Id. at 17–18.) According to Plaintiffs, when the Monument was removed, Defendants “terminated plaintiffs’
jointly established political speech,” injuring Plaintiffs
alone because Plaintiffs had “directed the establishment of the speech act and defendants acted in agreement for 110 years.” (Id. at 18.)
When standing is contested, the appropriate inquiry is whether the interest is cognizable in the abstract, and then, whether such interest is concrete and
particularly felt by those bringing suit; if the interest
alleged is both cognizable and particularly felt, it is an
injury in fact. See Lujan, 504 U.S. at 563 (“[T]he injury
in fact test requires more than an injury to a cognizable interest. It requires that the party seeking review
be himself among the injured.”). Here, Plaintiffs’ interest is cognizable and Plaintiffs have satisfied a concrete interest—free speech. See Pleasant Grove City.
Utah v. Summum, 555 U.S. 460 (2009); Church of Lukumi
Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520 (1993).
Concreteness, however, is not enough—the interest
must also be particularized.
Notably, Plaintiffs have not complained that Defendants have taken any direct action again either
Brewer or the Confederate Veterans. Instead, they
complain, as stated above, that they “directed the establishment of the speech [contained in the Monument] and defendants acted in agreement for 110 years,”
and were thus injured by the Monument’s removal.
However, as our sister court in Austin recently held on

App. 28
a very similar case, “[s]ubjective ideological interests—
no matter how deeply felt—are not enough to confer
standing.” McMahon v. Fenves, No. 1:17-CV-822-LY,
2018 WL 3118692, at *4 (W.D. Tex. June 25, 2018) (citing Sierra Club v. Morton, 405 U.S. 727, 729-35 (1972)).
“Our system of governance assigns the vindication of
value preferences to the democratic political process,
not the judicial process, see Lujan, 504 U.S. at 576, 112
S.Ct. 2130, because limiting the right to sue to those
most immediately affected ‘who have a direct stake in
the outcome’ prevents judicial review ‘at the behest of
organizations who seek to do no more than vindicate
their own value preferences.’ ” Id. (quoting Sierra Club,
405 U.S. at 740). Here, Plaintiffs seek to do just that.
Plaintiffs are likely more deeply attached to the values
embodied by the Monument than the average person
walking through Travis Park, “but their identities as
descendants of Confederate veterans do not transform
an abstract ideological interest in preserving the Confederate legacy into a particularized injury.” See id.
Thus, the alleged free-speech injury of Plaintiffs, while
perhaps cognizable in the abstract, is not an injury in
fact.
B.

Taxpayer Standing

Still, Plaintiff Brewer asserts that he has taxpayer
standing to bring his claims. (Dkt. # 44.) Taxpayer
standing is an exception to the general rule that the
plaintiff must show a particularized injury distinct
from that suffered by the public. See Bland Indep. Sch.
Dist. v. Blue, 34 S.W.3d 547, 555-56 (Tex. 2000); Hendee

App. 29
v. Dewhurst, 228 S.W.3d 354, 373-74 (Tex. App.—Austin 2007, pet. denied). A plaintiff relying on taxpayer
standing can seek to enjoin prospective expenditures
of public funds, but cannot recover funds already expended. Williams v. Huff, 52 S.W.3d 171, 180 (Tex.
2001) (emphasis added). To establish taxpayer standing, a plaintiff must show that (1) he is a taxpayer, and
(2) public funds are to be expended on the allegedly
illegal activity. Id. at 179; Ehm v. San Antonio City
Council, 269 F. App’x 375, 377 (5th Cir. 2008) (per curiam).
The “illegal expenditure” exception is a long-recognized, but narrowly limited, exception to the general
prohibition against recognizing taxpayer standing. See
Williams, 52 S.W.3d at 180; Bland Indep. Sch. Dist., 34
S.W.3d at 555 (both quoting Osborne v. Keith, 177
S.W.3d 198, 200 (Tex. 1944)). The limited standing permitted a taxpayer under this exception applies only
when the taxpayer seeks (1) to challenge a proposed,
allegedly illegal, expenditure and (2) to enjoin the expenditure. See Williams, 52 S.W.3d at 181; Bland Indep. Sch. Dist., 34 S.W.3d at 556 (both citing Hoffman
v. Davis, 100 S.W.2d 94, 96 (1937)).
Brewer asserts that he has taxpayer standing because he is a resident taxpayer of San Antonio and he
has contested the removal of the Monument as unconstitutional. (Dkt. # 44 at 11.) He further argues that
Defendants expended taxpayer funds in the illegal removal. (Id.) In response, Defendants contend that
Plaintiffs have no evidence that the City is currently
spending taxpayer funds in relation to the Monument,

App. 30
nor any evidence that taxpayer funds will be spent in
the future. (Dkt. # 54 at 12.) Defendants further argue that Brewer cannot maintain taxpayer standing
because Plaintiffs’ second amended complaint fails to
plead any request for injunctive relief. (Id.)
Here, the Court must consider the issue of Brewer’s
standing as a taxpayer in context. Plaintiffs filed suit
in this case just prior to the removal of the Monument,
and thus it would seem likely, at that time, Brewer had
taxpayer standing to challenge and enjoin the removal
of the Monument since taxpayer funds were proposed
to be prospectively spent on its removal. (See Dkt. # 561.) Thus, the Court proceeded to consider the merits of
Plaintiffs’ challenge in its Order on Plaintiffs’ Motion
for Temporary Restraining Order. (Dkt. # 7.) While the
Court noted in its Order that Plaintiffs had not alleged
how they had standing to challenge the removal, the
Court nonetheless proceeded to review Plaintiffs’ motion, stating that “even if Plaintiffs can demonstrate
standing, they have not established the elements necessary for the Court’s issuance of a TRO.” (Id. at 4.)
Thus, even though Plaintiffs had not yet pled or demonstrated standing, given the sensitive timing of the
request, the Court assumed that Plaintiffs had, or
could at least demonstrate, taxpayer standing.
Since that time, the Monument was removed and
the taxpayer funds used on its removal were previously expended. As a result, there is nothing left
to enjoin from Plaintiffs’ original complaint. Indeed,
Plaintiffs’ second amended petition no longer seeks injunctive relief. (See Dkt. # 44.) Accordingly, the original

App. 31
issue for which Plaintiffs filed suit is moot. See Envtl.
Conserv. Org. v. City of Dall., 529 F.3d 519, 524–25 (5th
Cir. 2008) (“ ‘Mootness is the doctrine of standing in a
time frame. The requisite personal interest that must
exist at the commencement of litigation (standing)
must continue throughout its existence (mootness).’ ”
(quoting U.S. Parole Comm’n v. Geraghty, 445 U.S. 388,
397 (1980))). Given this, the Court does not see how
Plaintiffs can now maintain taxpayer standing to assert the claims alleged in their second amended complaint. The taxpayer funds have already been spent to
remove the Monument, and Plaintiffs’ second amended
complaint no longer seeks to enjoin future, allegedly
illegal expenditures of public funds. The second amended
complaint alleges only that “Defendants expended taxpayer funds in the illegal removal.” (Dkt. # 44 at 11.)
While not binding on this Court, the Texas Supreme Court has determined that a taxpayer may
maintain an action solely to challenge proposed illegal
expenditures; he or she may not sue to recover funds
previously expended or challenge expenditures that
are merely “unwise or indiscreet.” Williams, 52 S.W.3d
at 180 (citing Hoffman, 100 S.W.2d at 96; Osborne, 177
S.W.2d at 200). Only the public entity affected by an
allegedly illegal expenditure has standing to sue to recover already expended funds. See Bland Indep. Sch.
Dist., 34 S.W.3d at 556 (quoting Hoffman, 100 S.W.2d
at 96). Accordingly, because Plaintiffs no longer seek to
enjoin the prospective expenditure of taxpayer funds
on allegedly illegal activity, the Court finds that Brewer

App. 32
lacks taxpayer standing to bring the claims alleged in
Plaintiffs’ second amended complaint.
C.

Organizational Standing

To the extent the Confederate Veterans rely on associational or organizational standing to bring their
claims, this too fails. An association seeking to “bring
suit on behalf of its members” has standing only if “its
members would otherwise have standing to sue in
their own right.” Hunt v. Washington State Apple Advert. Comm’n, 432 U.S. 333, 343 (1977).
Here, the Confederate Veterans have not alleged
any injury different from that of Brewer. Though the
Confederate Veterans argue the injury is unique to its
members, it is the same injury alleged by Brewer and
is not sufficient to confer standing. Because the Confederate Veterans plead no injury to its members other
than an injury rejected by this Court, as stated above,
it has not pleaded that “its members would otherwise
have standing to sue in their own right.” Accordingly,
the Confederate Veterans lack associational standing
to bring this lawsuit.
An “organization can establish standing in its own
name if it meets the same standing test that applies to
individuals.” OCA-Greater Houston v. Texas, 867 F.3d
604, 610 (5th Cir. 2017). Plaintiffs’ response to Defendants’ motion for summary judgment fails to produce
any argument or evidence in support of organizational
standing. In any case, as addressed above, Plaintiffs
have failed to allege a concrete, particularized, and

App. 33
imminent injury; therefore, Plaintiffs have not demonstrated that they have organizational standing.
D.

State-Law Claims and Supplemental Jurisdiction

To the extent Plaintiffs have standing to bring any
state-law causes of action, the Court will decline to exercise supplemental jurisdiction over them. A court
may decline to exercise supplemental jurisdiction over
state-law claims when it has “dismissed all claims over
which it has original jurisdiction.” 28 U.S.C. § 1367(c)(3);
see also Artis v. District of Columbia, ___ U.S. ___, 138
S. Ct. 594, 597-98 (2018) (“When district courts dismiss
all claims independently qualifying for the exercise of
federal jurisdiction, they ordinarily dismiss as well all
related state claims.”); accord Heggemeier v. Caldwell
Cty., Texas, 826 F.3d 861, 872-73 (5th Cir. 2016). The
Sixth Court of Appeals of Texas considered and rejected similar state-law claims brought by some of
these Plaintiffs. See Bray v. Femes, No. 6-15-00075-CV,
2016 WL 3083539 (Tex. App.—Texarkana Mar. 24,
2016, pet. denied). Since all federal law claims have
been dismissed for lack of standing,2 this Court will not
exercise its supplemental jurisdiction over any remaining state-law claims.
2

The Court takes no position on whether Plaintiffs’ alleged
injuries finds support in First Amendment case law or would ultimately be successful on the merits. See Steel Co. v. Citizens for a
Better Env’t, 523 U.S. 83, 94 (1998) (refusing to decide merits before resolving Article III jurisdictional questions “because it carries
the courts beyond the bounds of authorized judicial action”).

App. 34
CONCLUSION
For the foregoing reasons, the Court GRANTS Defendants’ Motion for Summary Judgment or, in the
Alternative, Motion to Dismiss (Dkt. # 54), and DENIES AS MOOT Defendants Nirenberg, Trevino, Shaw,
Viagran, Saldana, Gonzales, Brockhouse, Sandoval,
Palaez, Courage and Perry, in their individual capacities’ Rule 12(b)(6) Motion to Dismiss (Dkt. # 59). Plaintiffs’ federal law claims are DISMISSED for LACK
OF STANDING; Plaintiffs’ state law claims are DISMISSED WITHOUT PREJUDICE. The Clerk’s Office is INSTRUCTED to CLOSE THE CASE.
IT IS SO ORDERED.
DATED: San Antonio, Texas, September 17, 2018.
/s/ David Alan Ezra
David Alan Ezra
Senior United States
Distict Judge

App. 35
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
DAVID MCMAHON, STEVEN
LITTLEFIELD, AND THE
TEXAS DIVISION, SONS
OF CONFEDERATE
VETERANS, INC.,
PLAINTIFFS,
V.
GREGORY L. FENVES, IN
HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE
UNIVERSITY OF TEXAS
AT AUSTIN,
DEFENDANT

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

CAUSE NO.
1:17-CV-822-LY

ORDER
(Filed Aug. 2, 2018)
Before the court are Plaintiffs’ Motion for Leave to
Amend Complaint filed July 10, 2018 (Dkt. No. 18),
Plaintiffs’ Motion to Reconsider Dismissal filed July
10, 2018 (Dkt. No. 19), Defendant’s Response in Opposition to Plaintiffs’ Motion to Reconsider Dismissal and
Plaintiffs’ Motion for Leave to Amend Complaint filed
July 17, 2018 (Dkt. No. 20), and Plaintiffs’ Reply to Defendant’s Response in Opposition to Plaintiffs’ Motion
to Reconsider Dismissal filed July 22, 2018 (Dkt. No.
21).

App. 36
On June 25, 2018, this court rendered an order dismissing this cause of action because Plaintiffs David
McMahon, Steven Littlefield, and Texas Division, Sons
of Confederate Veterans, Inc.1 lack standing to sue.
(Dkt. No. 14). Final judgment was rendered on that
same day. (Dkt. No. 15). McMahon now asks this court
to reconsider its dismissal of the suit and seeks leave
to file an amended complaint.
Federal Rule of Civil Procedure 60(b) allows the
court to grant relief from an order based on mistake,
inadvertence, surprise, excusable neglect, newly discovered evidence, or fraud. Motions to alter an order
must “clearly establish either a manifest error of law
or fact or must present newly discovered evidence.”
Dial One of the Mid-S., Inc. v. BellSouth Telecomms.,
Inc., 401 F.3d 603, 606 (5th Cir. 2005). A motion for reconsideration is not the proper vehicle for rehashing
evidence, legal theories, or arguments that could have
been offered or raised before the entry of the court’s
order. See Simon v. United States, 891 F.2d 1154, 1159
(5th Cir. 1990). Reconsideration of an order is an extraordinary remedy that should be used sparingly. See
Templet v. HydroChem, Inc., 367 F.3d 473, 479 (5th Cir.
2004).
McMahon does not identify any basis for seeking
reconsideration under the Federal Rules of Civil Procedure. Instead, McMahon seeks reconsideration
1

As the interests of Plaintiffs do not diverge, the court will
refer to them collectively as “McMahon,” unless otherwise noted
or as needed for context.

App. 37
because he “had been drafting an amended complaint
addressing standing and presenting two new [state
law] claims.” To that end, McMahon also seeks leave to
file an amended complaint, which he claims will remedy this court’s conclusion on standing.
Having reviewed the motions and applicable law,
the court concludes that there has been no showing
that the court’s order of June 25, 2018 (Dkt. No. 14)
included any manifest errors of law or fact; nor has
McMahon presented newly discovered evidence. Instead McMahon claims that this court should consider
his right to free speech in light of the Supreme Court’s
recent decision in Masterpiece Cakeshop, Ltd. v. Colorado Civil Rights Comm’n, U.S., 138 S. Ct. 1719 (Jun.
4, 2018). McMahon’s reliance on this case is misplaced
for several reasons. While the facts of Masterpiece
Cakeshop implicated questions about a cake artist’s
free speech rights, the Court’s holding was ultimately
based on the Free Exercise Clause and not the Free
Speech Clause. See id. at 1723 (“Whatever the confluence of speech and free exercise principles might be in
some cases, the Colorado Civil Rights Commission’s
consideration of this case was inconsistent with the
State’s obligation of religious neutrality.”). The Court
did not express an opinion on the parties’ standing to
sue. Perhaps most importantly, McMahon’s invocation
of Masterpiece Cakeshop does nothing to remedy the
fundamental defect prompting dismissal of suit in the
first instance—McMahon cannot transform a subjective ideological interest in the Confederate cause into
a particularized injury sufficient to support standing.

App. 38
Accordingly,
IT IS ORDERED that Plaintiffs’ Motion for
Leave to Amend Complaint filed July 10, 2018 (Dkt.
No. 18) is DENIED.
IT IS FURTHER ORDERED that Plaintiffs’ Motion to Reconsider Dismissal filed July 10, 2018 (Dkt.
No. 19) is DENIED.
SIGNED this 1st day of August, 2018.
/s/ Lee Yeakel
LEE YEAKEL
UNITED STATES
DISTRICT JUDGE

App. 39
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
DAVID MCMAHON, STEVEN
LITTLEFIELD, AND THE
TEXAS DIVISION, SONS OF
CONFEDERATE VETERANS,
INC.,
PLAINTIFFS,
V.
GREGORY L. FENVES,
IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE
UNIVERSITY OF TEXAS
AT AUSTIN,
DEFENDANT.

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

CAUSE NO.
1:17-CV-822-LY

MEMORANDUM OPINION AND ORDER
(Filed Jun. 25, 2018)
Before the court are Defendant’s Motion to Dismiss filed November 20, 2017 (Dkt. No. 12), Plaintiffs’
Response to Defendant’s Motion to Dismiss filed December 4, 2017 (Dkt. No. 13), and Defendant’s Reply
in Support of Motion to Dismiss filed December 11,
2017 (Dkt. No. 14). Having carefully considered the
briefing, applicable law, and the entire case file, the
court will grant the motion to dismiss for the reasons
that follow.

App. 40
I.

BACKGROUND

George Littlefield was an early and prominent
benefactor to the University of Texas (“the University”). He served in Terry’s Texas Rangers during the
Civil War and believed that Confederate history should
be preserved and celebrated so that “future generations would remember those grand patriots who gave
up their lives for the cause of liberty and self-government.” To that end, he commissioned a sculptor to create statues of Jefferson Davis, Robert E. Lee, Albert
Sidney Johnston, John Reagan, James Hogg, and President Woodrow Wilson “during a period of resurgent
white Southern nostalgia for the social order of the old
South embodied by the Confederacy.”1 Littlefield’s will
provided a bequest to the University to establish the
Littlefield Fund for Southern History and another
fund to erect the commissioned statues “in places of
prominence” on campus. The statues were installed
along the main mall of the University’s Austin, Texas
campus in the 1930s.
In 2015, University President Gregory L. Fenves
(“Fenves”) formed a taskforce with students, faculty,
and alumni “to study the artistic, social, political intent, and historical context” of the statues, to “review
the past and present controversies over the statues,”
and to “develop[ ] alternatives for the for the relocation
of the statues.” The taskforce suggested several
1

Task Force on Historical Representation of Statuary at UT
Austin, Report to President Gregory L. Fenves (Aug. 10, 2015),
http://diversity.utexas.edu/statues/wp-content/uploads/2016/01/
Task-Force-Report-FINAL-08_09_15.pdf.

App. 41
solutions, including relocating the statues to the Briscoe Center for American History to be displayed in full
historical context with one of the largest collections of
resources on American slavery in the country as well
as in full artistic context alongside the papers of Littlefield and the sculptor of the statues. After a white
supremacist shot and killed nine individuals at a
church in Charleston, South Carolina, Fenves accepted
the recommendation of the task force and announced
his decision to move the Jefferson Davis and Woodrow
Wilson statues. David Bray and Texas Division of the
Sons of Confederate Veterans filed suit in state court
the next day seeking a permanent injunction to prevent Fenves from removing the statues. The suit was
based on state-law claims similar to those brought by
the current plaintiffs. The state court denied the motion for an injunction on the basis that the plaintiffs
did not have standing to bring the claims. The Texas
Sixth Court of Appeals affirmed. See Bray v. Fenves,
No. 06-15-75-CV, 2016 WL 3083539 (Tex. App.—Texarkana 2016, pet. denied). The Wilson and Davis statues
were subsequently removed, but the other Confederate
statues remained on the mall.
In 2017, Fenves caused the removal of the Robert
E. Lee, Albert Sidney Johnston, John Reagan, and
James Hogg statues from the main mall, after a neo-Nazi
killed a young woman who was counter-protesting a
white-supremacist demonstration in Charlottesville,
Virginia. Fenves determined that “Confederate

App. 42
monuments have become symbols of modern white supremacy and neo-Nazism.”2
Plaintiffs David McMahon, Steven Littlefield, and
Texas Division, Sons of Confederate Veterans, Inc.3
filed this suit against Fenves on August 23, 2017.
McMahon filed his First Amended Complaint, Application for Injunctive Relief, & Motion for Declaratory
Judgment on September 20, 2017 (Dkt. No. 7).4 The
parties agreed that the University would maintain the
status quo until the court ruled on the motion to dismiss.
McMahon and Littlefield are both descendants of
Confederate veterans, and Littlefield is a descendant
of George Littlefield. McMahon claims that the University’s removal of the statues and impending obscuration of the plinths of the statues violates his right to
free speech under the First Amendment. In “abridging
the political speech of the monument,” McMahon
claims that the University abridged his own right to
hold a dissenting political viewpoint.
The Texas Division, Sons of Confederate Veterans
(the “Sons”) seek to “protect the memory of our beloved
2

Gregory L. Fenves, Confederate Statues on Campus, (Aug.
20, 2017), https://president.utexas.edu/messages/confederatestatues-on-campus.
3
As the interests of Plaintiffs do not diverge, the court will
refer to them collectively as “McMahon,” unless otherwise noted
or as needed for context.
4
McMahon filed an unopposed motion to withdraw his motion for preliminary injunction on September 27, 2017 (Dkt. No.
10), which this court granted on October 2, 2017 (Dkt. No. 11).

App. 43
Confederate Veterans,” including “memorials, images,
symbols, monuments and gravesites.” The Sons also
claim a First Amendment injury on behalf of its members because its members “dissenting political viewpoint [ ] was communicated by the Littlefield statues.”
Invoking the supplemental jurisdiction of this
court, McMahon brings several additional state-law
claims, including breach of the bequest agreement between Littlefield and the University, violation of Texas
Government Code Section 2166.501 and .5011, and violation of the Board of Regents’ authority over the University campus. Fenves moved to dismiss for lack of
standing and for failure to state a claim.
II.

STANDING

The judicial power may be invoked to adjudicate a
disagreement between litigants only if the party bringing suit has standing to bring its claims. Article III of
the Constitution limits the exercise of the judicial
power to the “resolution of ‘cases’ and ‘controversies.’ ”
Valley Forge Christian Coll. v. Americans United for
Separation of Church & State, Inc., 454 U.S. 464, 471
(1982). Standing to bring suit is an “essential and unchanging part of the case-or-controversy requirement.”
Lujan v. Defenders of Wildlife, 504 U.S. 555, 560 (1992).
Standing “limits the category of litigants empowered
to maintain a lawsuit in federal court to seek redress
for a legal wrong,” Spokeo, Inc. v. Robins, ___ U.S. ___,
136 S. Ct. 1540, 1547 (2016), as revised (May 24, 2016),
in order to ensure that the judicial power is invoked

App. 44
only to “redress or prevent actual or imminently
threatened injury” particular to the plaintiff Summers
v. Earth Island Inst., 555 U.S. 488, 492 (2009).
The elements of standing are familiar: a plaintiff
must have (1) suffered an injury in fact, (2) that is
fairly traceable to the challenged conduct of the defendant, and (3) that is likely to be redressed by a favorable judicial decision. See Lujan, 504 U.S. at 560–
61. The plaintiff bears the burden of establishing each
of these elements “with the manner and degree of evidence required at the successive stages of the litigation.” Id at 561. At the motion-to-dismiss stage “the
plaintiff must clearly allege facts demonstrating each
element.” Spokeo, 136 S. Ct. at 1547 (internal punctuation and citation omitted). The court may not “create
its own jurisdiction by embellishing otherwise deficient allegations of standing.” Whitmore v. Arkansas,
495 U.S. 149, 155–56 (1990).
To demonstrate an injury in fact, a plaintiff must
show “ ‘an invasion of a legally protected interest’ that
is ‘concrete and particularized’ and ‘actual or imminent, not conjectural or hypothetical.’ ” Spokeo, 136
S. Ct. at 1548 (citing Lujan, 504 U.S. at 560). A particularized injury “must affect the plaintiff in a personal
and individual way.” Id. Unlike when one is challenging the legality of an action taken directly against the
plaintiff, when “a plaintiff ’s asserted injury arises from
the government’s allegedly unlawful regulation (or
lack of regulation) of someone else, much more is
needed.” Lujan, 504 U.S. at 562.

App. 45
1. Legally Protected Interest
To satisfy the injury-in-fact prong, a plaintiff must
allege an invasion of a “legally protected interest,” that
is both “concrete and particularized.” The legally protected interest McMahon seeks to protect is the right
to hold a politically unpopular viewpoint. Put simply,
McMahon argues that the University engaged in
viewpoint discrimination against his dissenting viewpoint—that which celebrates the Confederate legacy—
when the University removed the Confederate statues
from its grounds. Because McMahon shares this dissenting viewpoint, he believes that the University’s
removal of the statues amounts to viewpoint discrimination against him personally. When standing is contested, the appropriate inquiry is whether the interest
is cognizable in the abstract, and then, whether such
interest is concrete and particularly felt by those
bringing suit; if the interest alleged is both cognizable
and particularly felt it is an injury in fact. See Lujan,
504 U.S. at 563 (“[T]he injury in fact test requires more
than an injury to a cognizable interest. It requires that
the party seeking review be himself among the injured.”).
An intangible interest, such as that of free speech,
satisfies the concreteness requirement. See Spokeo,
136 S. Ct. at 1549 (citing Pleasant Grove City, Utah v.
Summum, 555 U.S. 460 (2009); Church of Lukumi
Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520 (1993)).
Concreteness, however, is not enough—the interest
must also be particularized.

App. 46
2. Particularized Interest
Construed charitably, McMahon’s clearest claim of
a particularized injury seems to be that the University
discriminated against his dissenting political viewpoint when it removed the statues simply because the
statues represented his political viewpoint. Although
the University has not taken a direct action against
McMahon or prevented McMahon from speaking,
McMahon argues that his “injury is distinct from any
effect on the general public” because of the McMahon’s
“unique ties through familial veterans’ service to the
dissenting political viewpoint expressed in the [s]tatues.”5
Subjective ideological interests—no matter how
deeply felt—are not enough to confer standing. See
Sierra Club v. Morton, 405 U.S. 727, 729–35 (1972).6

5

McMahon argues that “[i]n order for an injury to be particularized, it must effect [sic] a small, easily identifiable group, as
distinguished from the public generally.” McMahon relies on decisions holding that beneficiaries of a charitable trust have standing to enforce the terms of that trust and bases his analysis on
these cases. However, neither McMahon, Littlefield, nor the Sons
are beneficiaries, trustees, or executors of the George Littlefield
will. And no matter how “sharply defined” or “small” the membership, the Sons may not police the terms of the will.
6
In Sierra Club, the Sierra Club sought to enjoin the government from developing a national park. Id. at 729–31. It claimed a
special interest in the “conservation and sound maintenance of
the national parks.” Id. at 730. The Sierra Club claimed it was
injured by “a change in the aesthetics and ecology” of particular
national parks. Id. at 734. The Court did not question that this
type of harm “may amount to an ‘injury in fact,’ ” but noted “the
‘injury in fact’ test requires more than an injury to a cognizable

App. 47
Our system of governance assigns the vindication of
value preferences to the democratic political process,
not the judicial process, see Lujan, 504 U.S. at 576, because limiting the right to sue to those most immediately affected “who have a direct stake in the outcome”
prevents judicial review “at the behest of organizations
who seek to do no more than vindicate their own value
preferences.” Sierra Club, 405 U.S. at 740. McMahon
and Littlefield seek to do just that. McMahon and Littlefield may be more deeply attached to the values embodied by the Confederate monuments than the
average student rushing to class on the mall, but their
identities as descendants of Confederate veterans do
not transform an abstract ideological interest in preserving the Confederate legacy into a particularized
injury. The alleged free-speech injury of McMahon and
Littlefield, while perhaps cognizable in the abstract, is
not an injury in fact.
McMahon also relies on several cases for the proposition that alleging a First Amendment violation is all
that is needed to confer standing. McMahon’s reliance
on these cases is misplaced. The Court did not express
an opinion on the parties’ standing to sue—only on the
merits of their First Amendment claims. In fact, none
of the cases cited by McMahon discussed standing.
Nonetheless, these cases illustrate the same principles
as Sierra Club and Lujan: an injury to a cognizable
First Amendment interest must be concrete and particularly felt by the plaintiff bringing suit. In each of
interest. It requires that the party seeking review be himself
among the injured.” Id. at 734–35.

App. 48
the cases relied on by McMahon, the interest was the
right to free speech; however, that interest was still
particular to each of the plaintiffs bringing suit because the government acted directly against the plaintiffs, inter alia, in denying a license, denying a grant or
funding, and denying the opportunity to erect a new
statue.
In Walker v. Texas Division, Sons of Confederate
Veterans, Inc., the same organization bringing suit today unsuccessfully sought state approval for a specialty license plate featuring the Confederate Flag. ___
U.S. ___, 135 S. Ct. 2239 (2015). In Summum, a religious organization brought suit for a violation of the
First Amendment after it was twice denied a request
to erect a stone monument in a park with other permanent displays. 555 U.S. 460, 464 (2009). Likewise, in
National Endowment for the Arts v. Finley, artists sued
on a theory of viewpoint discrimination when they
were denied grant funding by the National Endowment for the Arts. 524 U.S. 569, 577 (1998). Finally, in
Rosenberger v. Rector & Visitors of Univ. of Virginia, a
religious student organization was denied funding by
a state university to publish a religious magazine. 515
U.S. 819, 827 (1995). These cases bear out what the
court concluded in Lujan: when “the plaintiff himself
is an object of the [government’s] action . . . there is ordinarily little question that the action or inaction has
caused him injury.” 504 U.S. at 561–62.
McMahon does not “clearly allege” with specificity
how the display or non-display of a statue, representing a viewpoint with which he agrees, equates to an

App. 49
exercise of his First Amendment rights. McMahon did
not fund the original statues; nor was he denied permission to erect new statues. Cf. Summum, 555 U.S. at
464. In fact, McMahon does not allege that he was prevented from speaking at all. Far from bolstering his argument, these cases illustrate the fundamental defect
in this case—a general action taken by the University
to remove an inanimate object, which bears no relation
to McMahon other than a shared ideological interest,
is not an action taken against McMahon.7 McMahon
and Littlefield have not alleged a sufficient injury in
fact, and as such, lack standing to bring this lawsuit.
3. Associational Standing
An association seeking to “bring suit on behalf of
its members” has standing only if “its members would
otherwise have standing to sue in their own right.”
Hunt v. Washington State Apple Advert. Comm’n, 432
U.S. 333, 343 (1977).
The Sons seeks to “protect the memory of our beloved Confederate Veterans,” including “memorials,
images, symbols, monuments and gravesites.” According to the Sons, these memorials communicate “the political viewpoint that Confederate American Heroes
sacrificed for a noble cause that the victors in the war
7

This much is revealed by the pleadings themselves, in
which McMahon alleges that the removal of the Confederate monuments and obscured inscriptions “directly abridges the political
speech of the monuments,” which he claims irreparably injures
McMahon.

App. 50
have almost uniformly whitewashed from history.” It
argues that “[the Sons] and [the Sons’] members were
uniquely injured” because their “dissenting political
viewpoint [ ] was communicated by the Littlefield statues.” Though the Sons argues the injury is unique to
its members, it is the same injury alleged by McMahon
and Littlefield and is not sufficient to confer standing.
Because the Sons pleads no injury to its members
other than an injury rejected by this court, it has not
pleaded that “its members would otherwise have
standing to sue in their own right.” Accordingly, the
Sons lacks standing to bring this lawsuit.
III. STATE-LAW CLAIMS

AND

SUPPLEMENTAL JURIS-

DICTION

In addition to the federal-law claim, McMahon asserts three state-law causes of action, including breach
of the George Littlefield bequest, breach of Texas Monument Protection Act, and breach of the Board of Regents authority by the University. McMahon invokes
the supplemental jurisdiction of this court to adjudicate his state-law claims.
A court may decline to exercise supplemental jurisdiction over state-law claims when it has “dismissed
all claims over which it has original jurisdiction.” 28
U.S.C. §1367(c)(3); see also Artis v. District of Columbia,
___ U.S. ___, 138 S. Ct. 594, 597–98 (Jan. 22, 2018)
(“When district courts dismiss all claims independently qualifying for the exercise of federal jurisdiction, they ordinarily dismiss as well all related state

App. 51
claims.”); accord Heggemeier v. Caldwell Cty., Texas,
826 F.3d 861, 872-73 (5th Cir. 2016). The Sixth Court
of Appeals considered and rejected similar state-law
claims brought by some of these Plaintiffs. See Bray v.
Fenves, No. 6–15-00075–CV, 2016 WL 3083539 (Tex.
App.—Texarkana Mar. 24, 2016, pet. denied). Since the
only federal-law claim has been dismissed, this court
will not exercise its supplemental jurisdiction over the
remaining state-law claims.
IV. CONCLUSION
The court concludes that McMahon, Littlefield,
and the Texas Division, Sons of Confederate Veterans
lack standing to bring this suit. Defendant additionally
moves to dismiss this suit on the grounds that the
Sons’ Complaint fails to state a claim upon which relief
can be granted. The court takes no position on whether
the Sons’ alleged injury finds support in First Amendment case law or would ultimately be successful on the
merits. See Steel Co. v. Citizens for a Better Env’t, 523
U.S. 83, 94 (1998) (refusing to decide merits before resolving Article III jurisdictional questions “because it
carries the courts beyond the bounds of authorized judicial action”). Accordingly,
IT IS ORDERED that Defendant’s Motion to
Dismiss filed November 20, 2017 (Dkt. No. 12) is
GRANTED.
IT IS FURTHER ORDERED that this case is
DISMISSED without prejudice.

App. 52
SIGNED this 25th day of June, 2018.
/s/ Lee Yeakel
LEE YEAKEL
UNITED STATES
DISTRICT JUDGE

